      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General


                                                                      Washington, D.C. 20201




September 14, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services

              /Joe J. Green/ for
FROM:         George M. Reeb
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Michigan’s Reporting Fund Recoveries for State Medicaid Programs
              on the Form CMS-64 for the First Quarter 2010 (A-05-10-00061)


Attached, for your information, is an advance copy of our final report on Michigan’s reporting
fund recoveries for State Medicaid programs on the Form CMS-64 for the first quarter of 2010.
We will issue this report to the Michigan Department of Community Health within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James C. Cox at (312) 353-2621 or through email at James.Cox@oig.hhs.gov. Please refer to
report number A-05-10-00061.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601



September 17, 2010

Report Number: A-05-10-00061

Ms. Janet Olszewski
Director
Michigan Department of Community Health
201 Townsend Street
Lansing, MI 48913

Dear Ms. Olszewski:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Michigan’s Reporting Fund Recoveries for State
Medicaid Programs on the Form CMS-64 for First Quarter 2010. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833, extension 21, or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-10-00061 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Janet Olszewski


cc:
Ms. Pam Myers
Audit Liaison
Michigan Department of Community Health


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF MICHIGAN’S REPORTING
     FUND RECOVERIES FOR
STATE MEDICAID PROGRAMS ON THE
     FORM CMS-64 FOR THE
      FIRST QUARTER 2010




                       Daniel R. Levinson
                        Inspector General

                        September 2010
                         A-05-10-00061
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

The State Medicaid agency uses a statewide surveillance and utilization control program to
safeguard against unnecessary or inappropriate use of Medicaid services and excess payments.
In Michigan, the Department of Community Health (State agency) administers the Medicaid
program. The State agency, through the Medicaid Integrity Program section, Hospital Health
Plan Reimbursement division, and Long Term Care division, conducted audits of Medicaid
providers. In addition, the State agency contracted with Michigan Peer Review Organization and
ACS Heritage to conduct audits of Medicaid providers. The Michigan Office of the Auditor
General (OAG) and the Medicaid Fraud Control Unit (MFCU) conducted audits and
investigations, respectively, of Medicaid providers. When any of these organizations identified
overpayments, the State agency sent letters to the providers that (1) identified the overpayment
amounts and (2) directed the providers to send payments to the State agency or notified the
providers of future payment offsets. The OAG sent notice to the State agency of overpayments
identified through its federally required audits. Providers were notified of fraud and abuse-
related overpayment amounts determined through settlements resulting from MFCU
investigations.

Section 1903(d)(2) of the Act requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State Medicaid agency
to refund the Federal share of an overpayment to a provider at the end of the 60-day period
following the date of discovery, whether or not the State Medicaid agency has recovered the
overpayment. The date of discovery for situations other than fraud or abuse is the date that a
provider was first notified in writing of an overpayment and the specified dollar amount subject
to recovery (42 CFR § 433.316(c)). For provider overpayments resulting from fraud or abuse,
discovery occurs on the date of the State’s final written notice of the overpayment determination
(42 CFR § 433.316(d)). Federal regulations (42 CFR § 433.304) define an overpayment as
“... the amount paid by a Medicaid agency to a provider in excess of the amount that is allowable
for the services furnished under section 1902 of the Act and which is required to be refunded
under section 1903 of the Act.” Because the Quarterly Medicaid Statement of Expenditures for
the Medical Assistance Program, Form CMS-64 (CMS-64), is due on a quarterly basis, the CMS
State Medicaid Manual requires the Federal share of the overpayments be reported no later than
the quarter in which the 60-day period ends.




                                                i
OBJECTIVE

Our objective was to determine whether Medicaid overpayments were reported on the CMS-64
in accordance with Federal requirements.

SUMMARY OF FINDINGS

The State agency did not report all Medicaid overpayments on the CMS-64 in accordance with
Federal requirements. For the quarter ending December 31, 2009, the State agency did not report
$3,000,000 ($2,198,100 Federal share) in overpayments on the CMS-64 in accordance with
Federal requirements because of a clerical error.

The State agency did not properly report these overpayments because it had not developed and
implemented internal controls to ensure that overpayments were reported on the CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $3,000,000 on the CMS-64 and refund
       $2,198,100 to the Federal Government and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and said it had included the $3,000,000 on a subsequent CMS-64. The State agency’s comments
are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Federal Requirements for Medicaid Overpayments ...........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          OVERPAYMENTS NOT REPORTED ..........................................................................3

          INTERNAL CONTROLS NOT IMPLEMENTED.........................................................4

          RECOMMENDATIONS .................................................................................................4

          STATE AGENCY COMMENTS ....................................................................................4

APPENDIX

           STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64 (CMS-64).

The State Medicaid agency implements a statewide surveillance and utilization control program
to safeguard against unnecessary or inappropriate use of Medicaid services and excess payments.
In Michigan, the Department of Community Health (State agency) administers the Medicaid
program. The State agency, through the Medicaid Integrity Program section, Hospital Health
Plan Reimbursement division, and Long Term Care division, conducted audits of Medicaid
providers. In addition, the State agency contracted with Michigan Peer Review Organization
(MPRO) and ACS Heritage to conduct surveillance and utilization review audits of Medicaid
providers. The Michigan Office of the Auditor General (OAG) conducted federally required
audits and provided overpayment findings to the State agency. The State Medicaid Fraud
Control Unit (MFCU) obtained settlements from Medicaid providers in situations related to fraud
or abuse investigations. When any of these organizations identified overpayments, the State
agency sent letters to the providers that (1) identified the overpayment amounts and (2) directed
the providers to send payments to the State agency or notified the providers of future payment
offsets. The OAG sent notice to the State agency of overpayments identified through its
federally required audits. Providers were notified of fraud and abuse-related overpayment
amounts determined through settlements resulting from MFCU investigations.

Federal Requirements for Medicaid Overpayments

The Federal Government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary of Health &
Human Services to recover the amount of a Medicaid overpayment. Federal regulations
(42 CFR § 433.304) define an overpayment as “… the amount paid by a Medicaid agency to a
provider in excess of the amount that is allowable for services furnished under section 1902 of
the Act and which is required to be refunded under section 1903 of the Act.” A State has
60 days from the discovery of a Medicaid overpayment to a provider to recover or attempt to
recover the overpayment before the Federal share of the overpayment must be refunded to



                                               1
CMS. 1 Section 1903(d)(2)(C) of the Act and Federal regulations at 42 CFR part 433, subpart F,
require a State to refund the Federal share of overpayments at the end of the 60-day period
following discovery whether or not the State has recovered the overpayment from the provider. 2
Pursuant to 42 CFR § 433.316(c), an overpayment that is not a result of fraud or abuse is
discovered on the earliest date:

        (1) ... on which any Medicaid agency official or other State official first notifies a
        provider in writing of an overpayment and specifies a dollar amount that is
        subject to recovery; (2) ... on which a provider initially acknowledges a specific
        overpaid amount in writing to the medicaid agency; or (3) ... on which any State
        official or fiscal agent of the State initiates a formal action to recoup a specific
        overpaid amount from a provider without having first notified the provider in
        writing.

Pursuant to 42 CFR § 433.316(d), an overpayment resulting from fraud or abuse is discovered on
the date of the final written notice of the State’s overpayment determination that a Medicaid
agency official or other State official sends to the provider. For overpayments identified through
Federal reviews, 42 CFR § 433.316(e) provides that an overpayment is discovered when the
Federal official first notifies the State in writing of the overpayment and the dollar amount
subject to recovery.

In addition, Federal regulations (42 CFR § 433.320) require that the State refund the Federal
share of an overpayment on its quarterly Form CMS-64. Provider overpayments must be
credited on the CMS-64 submitted for the quarter in which the 60-day period following
discovery ends.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid overpayments were reported on the CMS-64
in accordance with Federal requirements.

Scope

Our review covered Medicaid provider overpayments that were identified in audit reports,
settlement agreements, and overpayment letters issued to providers that should have been
reported on the CMS-64 for the quarter ending December 31, 2009. We reviewed the supporting
documentation for line 10C for the CMS-64 totaling $14,437,853.

1
  Effective March 23, 2010, section 6506 of the Patient Protection and Affordable Care Act, P.L. No. 111-148,
provides an extension period for the collection of overpayments. Except in the case of overpayments due to fraud,
States have up to 1 year from the date of discovery of a Medicaid overpayment to recover, or to attempt to recover,
such overpayment before making an adjustment to refund the Federal share of the overpayment. For overpayments
identified before the effective date, the previous rules on discovery of overpayment will be in effect.
2
  Section 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require the State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.


                                                         2
We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting policies and procedures for Medicaid overpayments.

We performed fieldwork at the State agency offices in Lansing, Michigan, from August 2009
through March 2010.

Methodology

To accomplish our audit objective, we:

   •   reviewed Federal laws, regulations, and other requirements governing Medicaid
       overpayments;

   •   interviewed State agency officials regarding policies and procedures relating to Medicaid
       audits and reporting overpayments on the CMS-64; and

   •   reviewed the CMS-64 and supporting documentation to determine whether the Medicaid
       overpayments for the quarter ending December 31, 2009, were reported in accordance
       with Federal requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not report all Medicaid overpayments on the CMS-64 in accordance with
Federal requirements. For the quarter ending December 31, 2009, the State agency did not report
$3,000,000 ($2,198,100 Federal share) in overpayments on the CMS-64 in accordance with
Federal requirements because of a clerical error.

The State agency did not properly report these overpayments because it had not developed and
implemented internal controls to ensure that overpayments were reported on the CMS-64.

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State agency “... must refund the Federal share of
overpayments at the end of the 60-day period following discovery ... whether or not the State has
recovered the overpayment from the provider.” The regulation provides an exception only when
the State is unable to recover the overpayment amount because the provider is bankrupt or out of
business (42 CFR § 433.318).




                                                3
For the quarter ending December 31, 2009, the State agency did not report Medicaid
overpayments totaling $3,000,000 ($2,198,100 Federal share) in accordance with Federal
requirements, because of a clerical error. The State agency’s supporting documentation
indicated that total Medicaid overpayments were $14,437,853 on line 10C; however the State
agency reported $11,437,853.

INTERNAL CONTROLS NOT IMPLEMENTED

The State agency did not develop and implement internal controls to ensure that it correctly
reported on the CMS-64 the Medicaid overpayments identified from State Medicaid audits and
settlements.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments totaling $3,000,000 on the CMS-64 and
       refund $2,198,100 to the Federal Government and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and said it had included the $3,000,000 on a subsequent CMS-64. The State agency’s comments
are included in their entirety as the Appendix.




                                               4
APPENDIX
                                                                                                                       Page 1 of2


                           APPENDIX: STATE AGENCY COMMENTS 





                                                       STA TF. OF MICHIG AN

      J ENNIFER M . GRANHOLM
                                       DEPARTMENT OF COMMUNITY HEALTH                                 JAN ET OLSZEWSKI
              GOveRN O R                                     L "NS1NG                                     D1RECTOf:\




      July 28, 2010



      Mr. James C, Cox
      Regional Inspector General for Audit Services
      Office of Inspector General
      Office of Audit Services, Region V
      233 North Michigan Avenue
      Suite 1360
      Chicago, IL 60601

      Re: Report Number (A-05-10-00061)

      Dear Mr. Cox:

      Enclosed is the Michigan Department of Community Health's response to the draft report entitled
      "Review of Michigan's Reporting Fund Recoveries for State Medicaid Programs on the Form CMS-64
      for the First Quarter of 2010",

      We appreciate the opportun ity to review and comment on the report before it is released, If you have
      any questions regarding this response, please refer them to Pam Myers at (517) 373-1508,

      Sincerely,




~

        V'...1.J O£1f",,-'J U
 / ,' Janet Olszewski '
( ) Director

      JO:kk

      Enclosure

     cc: 	 Steve Fitton
           Mary Jane Russell
           Pam Myers
           Tim Becker




                               CAPITOL VIEW BUILDING . 201 TOWNSEND STREET. LANSING, MICHIGAN 48913
                                                   www.miChigan .gov · (517) 373-3740
                                                                                                  Page 2 of2




                   Review of Michigan's Reporting Fund Recoveries for 

                     State Medicaid Programs on the Form CMS-64 

                                 for First Quarter 20 lO 

                                   (A-05-l 0-00061) 


Finding
The State agency did not repon all Medicaid overpayments in accordance with Federal requirements.
For the quarter ending December 3 1, 2009, the State agency did not report $3,000,000 ($2,198,100
Federal share) in overpayments on the CMS-64 in accordance wi th Federal requirements because of a
clerical error.

The State agency did not properly repon these overpayments because it had not developed and
implemented internal controls to ensure that overpayments were reported on the CMS-64.

Recommendations
We recommend that the State agency:
   • 	 include unreported Medicaid overpayments of $3,000,000 on the CMS-64 and refund
       $2, 198,100 to the Federal Govemment and

   • 	 develop and implement internal controls to correctly report and refund the Federal share of
       identified Medicaid overpayments on the CMS-64.


DCH Response
The Department:
   • 	 has corrected the clerical error, and included the additional $3,000,000 on the CMS-64 for the
       quarter ended March 31, 2010.
   • 	 concurs with the recommendation and will develop procedures to correctly report and refund
       the federal share of identified Medicaid overpayments on the CMS-64.
